  DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


      Department of Homeland Security
        Executive Transportation and
     Shuttle Bus Services Contract Review




OIG-07-37                          March 2007
                                                                          Office of Inspector General

                                                                          U.S. Department of Homeland Security
                                                                          Washington, DC 20528




                                       March 30, 2007


                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses DHS’ award of two executive transportation and shuttle bus
services contracts to Shirlington Limousine and Transportation, Inc. It is based on
interviews with employees and officials of relevant agencies and institutions, direct
observations, and analysis of applicable documents.

It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report




                                           Richard L. Skinner
                                           Inspector General
Table of Contents

Executive Summary ...................................................................................................................1
Background ................................................................................................................................3
Results of Review
     Shirlington Had Unfair Advantage Over Other Offerors ....................................................6
     Management Comments and OIG Analysis ........................................................................8
     OPO Awarded April 2004 Contract to Bidder That Was Unable To Meet Performance
           Requirements ...............................................................................................................10
     Management Comments and OIG Analysis ......................................................................12
     OPO Has Recently Improved Policies and Its Procedures ................................................12
Conclusions..............................................................................................................................13
Appendix A: Purpose, Scope, and Methodology...................................................................15
Appendix B: Congressional Requests ...................................................................................17
Appendix C: Management Comments to the Draft Report ...................................................22
Appendix D: Authorized Users of DHS Executive Transportation Services ........................26
Appendix E: Shirlington DHS Contracts and Modifications ................................................29
Appendix F: Major Contributors to this Report....................................................................30
Appendix G: Report Distribution ..........................................................................................31



Abbreviations
OAM                                         Office of Asset Management
CFR                                         Code of Federal Regulations
DHS                                         Department of Homeland Security
FAR                                         Federal Acquisition Regulation
FEMA                                        Federal Emergency Management Agency
GSA                                         U.S. General Services Administration
HUBZone                                     Historically Underutilized Business Zone
OIG                                         Office of Inspector General, Department of Homeland Security
OPO                                         Office of Procurement Operations
SBA                                         U.S. Small Business Administration
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                 In May 2006, Representatives Bennie G. Thompson and Bill Pascrell,
                 U.S. House of Representatives Committee on Homeland Security,
                 requested that we review DHS’ contract awards to Shirlington
                 Limousine and Transportation, Inc. (Shirlington). In June 2006,
                 Representatives Mike Rogers and Kendrick B. Meek made a related
                 request. Among other questions, they asked what transportation DHS
                 offered senior personnel, the validity of Shirlington’s Historically
                 Underutilized Business Zone (HUBZone) designation, the basis of the
                 April 2004 contract award, and whether Shirlington was a responsible
                 contractor. The U.S. Small Business Administration (SBA) approves
                 HUBZone certifications, so we limited our review to determining the
                 basis of the April 2004 award and establishment of contractor
                 responsibility. We referred concerns about potential individual
                 culpability to our Office of Investigations.

                 The DHS Office of Asset Management (OAM) notified Shirlington
                 approximately two months before it notified the public about DHS’
                 executive transportation and shuttle service requirements and its
                 intention to use a HUBZone solicitation. These actions did not comply
                 with federal regulations and gave Shirlington an unfair advantage over
                 other offerors by reducing competition and increasing the likelihood
                 that Shirlington would win the contract. Further, the DHS Office of
                 Procurement Operations (OPO) did not comply with federal
                 regulations when it issued a competitive solicitation after SBA notified
                 DHS that no HUBZone competition existed for Shirlington. Federal
                 regulations allow such solicitations only when an agency reasonably
                 expects that at least two HUBZone businesses will bid.

                 OPO awarded the contract to a nonresponsible contractor. Shirlington
                 lacked financial resources adequate to fulfill the contract requirement
                 to use buses not more than one year old. Shirlington did not have
                 appropriate vehicles until almost two months into the performance
                 period. OPO did not comply with federal regulations when it awarded
                 the contract to a nonresponsible contractor and did not document
                 contractor responsibility prior to the April 2004 contract award.


               DHS Executive Transportation and Shuttle Bus Services Contract Review

                                              Page 1
  We are not making any recommendations at this time. Senior
  executives, staffing, policy, and oversight processes and procedures
  have changed significantly since the April 2004 contract award. These
  changes should improve compliance with federal regulations. We will
  assess the effectiveness of these changes in future reviews.




DHS Executive Transportation and Shuttle Bus Services Contract Review

                               Page 2
Background
               In 2003, the Department of Homeland Security (DHS) provided
               executive transportation and bus services between its headquarters
               locations through a purchase order issued under an existing
               U.S. General Services Administration (GSA) schedule contract to a
               minority-owned, small, disadvantaged business. As DHS’
               transportation needs increased, DHS needed to compete the
               requirements.

               In January 2004, the DHS Office of Small and Disadvantaged
               Business Utilization referred Shirlington Limousine and
               Transportation, Inc. (Shirlington) to the Office of Asset Management
               (OAM), along with names of three small business concerns. OAM
               first met with Shirlington on January 8, 2004. On February 10, 2004,
               OAM submitted a procurement request to the Office of Procurement
               Operations (OPO), totaling $1.3 million for a one-year, 8(a) or
               HUBZone set-aside to Shirlington. OAM continued to pursue both
               alternatives concurrently in an effort to award Shirlington a sole source
               contract.

               But OPO could not award Shirlington a sole source 8(a) or HUBZone
               contract. Shirlington did not have an 8(a) certificate, consequently, it
               was ineligible for an 8(a) award. Furthermore, the contract’s
               anticipated price would exceed the threshold for issuing a sole source
               award. Federal regulations also do not allow agencies to award sole
               source, HUBZone contracts when a non-HUBZone small business
               concern is already performing the requirement. In this case, the
               incumbent contractor, Millennium Tek, was a non-HUBZone small
               business concern.

               On April 15, 2004, OPO issued a competitive solicitation for
               HUBZone small business concerns. On April 27, 2004, OPO awarded
               Shirlington a one-year contract, with one option year. The base year
               contract totaled $1.6 million, with an additional one-year option
               totaling $1.7 million. The contract requirements grew as DHS added
               service routes. OPO extended the April 2004 contract through
               October 2005, while it competed the future transportation services
               requirements. On October 27, 2005, OPO awarded Shirlington a
               second one-year contract, with four option years. The base year
               contract totaled $3.9 million, with four, one-year options totaling
               approximately $17 million. Prior to the second contract expiring in
               October 2006, OPO exercised the first option year. Expenditures
               through October 2006, for both Shirlington contracts total $8 million.


             DHS Executive Transportation and Shuttle Bus Services Contract Review

                                            Page 3
                            See Appendix E for information about Shirlington contracts and
                            modifications.

                            In November 2006, OPO issued a competitive solicitation for small
                            business concerns to bid on transportation services. OPO officials told
                            us it intended to award a new contract in February 2007, but two
                            protests to the solicitation have delayed the process. On
                            March 13, 2007, GAO issued a decision regarding the first protest in
                            favor of OPO. GAO ruled that the contract requirement was not
                            unduly restrictive of competition and was reasonably designed to
                            ensure the government’s needs would be met. The decision also stated
                            that OPO had a reasonable basis for not setting aside the contract for
                            HUBZone small business concerns. Sufficient facts existed to support
                            OPO’s conclusion that it did not have a reasonable expectation that
                            offers would be received from two or more HUBZone business
                            concerns. The remaining protest is still pending resolution by GAO.
                            Once resolved, OPO officials will begin reviewing proposals.

           Historically Underutilized Business Zone Program
                            The Historically Underutilized Business Zone (HUBZone) program,
                            which the HUBZone Act of 19971 established, seeks to increase
                            employment opportunities, investment, and economic development by
                            providing federal contracting assistance to qualified small businesses
                            in designated areas. A historically underutilized business zone is an
                            area located within one or more qualified census tracts, qualified non-
                            metropolitan counties, or lands within the external boundaries of an
                            Indian reservation. The U.S. Small Business Administration (SBA), in
                            its sole discretion, determines whether a business qualifies for the
                            program. For a business to be certified as a HUBZone business, it
                            must submit an application to SBA with supporting documentation
                            that it meets the following criteria.

                                 •    The company is small by SBA standards.
                                 •    The company is exclusively owned and controlled by
                                      U.S. citizens.
                                 •    At least 35% of company employees reside within a HUBZone.
                                 •    The company’s principal office is located in a HUBZone.




1
    P.L. 105-135, Title VI, December 2, 1997.


                          DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                         Page 4
        8(a) Business Development Program
                         The 8(a) Business Development Program is another federal assistance
                         program. Its requirements differ in some respects from the HUBZone
                         program. For example, it is not geographically based. SBA has the
                         responsibility for approving 8(a) Business Development Program
                         participants based on the following requirements.2

                              •    The company is small by SBA standards.
                              •    The company is unconditionally owned and controlled by one
                                   or more socially and economically disadvantaged individuals
                                   who are of good character and U.S. citizens.
                              •    The company demonstrates potential for business success.

                         An agency may award contracts through SBA to participating 8(a)
                         Business Development Program small businesses on either a
                         competitive or a sole source basis.3 If an agency does not reasonably
                         expect at least two eligible and responsible firms to submit fair market
                         price offers for a solicitation, the agency can issue a sole source,
                         8(a) Business Development Program contract that exceeds the
                         competitive threshold.4 For sole source, 8(a) Business Development
                         Program contracts, agencies do not have to prepare the written
                         justifications and approvals normally required for sole source
                         contracts.5


        DHS Executive Transportation and Shuttle Bus Services
                         DHS leases and maintains control of the vehicles that Shirlington
                         operates as the executive motor pool. Shirlington provides personnel
                         and supervision, including dispatch service and a quality control
                         manager. Shirlington maintains dispatcher and driver logs for a
                         continuing 90-day period. The logs contain usage statistics, such as
                         pick up and delivery locations, dates, and times; and passenger names.

                         DHS authorizes certain department personnel to use executive motor
                         pool services. Appendix D lists the positions DHS authorizes. The
                         Shirlington dispatchers prioritize trips according to DHS’ instructions.


2
  13 C.F.R. § 124.101-112, Eligibility Requirements For Participation In The 8(a) business Development
Program, January 1, 2006.
3
  FAR § 19.800(b), Contracting With The Small Business Administration (The 8(a) Program), April 5, 2004.
4
  FAR § 19.805-1(b)(1), General, April 5, 2004.
5
  FAR § 6.302-5(b)(4), Authorized or Required by Statute, April 5, 2004.


                       DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                      Page 5
                            DHS plans to consolidate the executive motor pool services that its
                            operating components retained when Congress created DHS. The five
                            components that have executive motor pool services separate from the
                            service Shirlington provides are U.S. Citizenship and Immigration
                            Services, U.S. Customs and Border Protection, U.S. Immigration and
                            Customs Enforcement, Transportation Security Administration, and
                            United States Coast Guard. The Office of OAM told us that personnel
                            from the five components do not have approval to use Shirlington’s
                            services. Reviewing the other DHS transportation services contracts
                            was outside the scope of this review.

                            In addition to executive transportation services, Shirlington provides
                            shuttle bus services for the approximately 5,000 DHS personnel in the
                            Washington, D.C., metropolitan area. Shirlington currently services
                            six regular routes using ten shuttle buses.

Results of Review
           Shirlington Had Unfair Advantage Over Other Offerors
                            Federal regulations require an agency to ensure that all potential
                            offerors receive the same specific information about proposed
                            acquisitions in a timely manner.6 Before issuing the April 2004
                            competitive HUBZone solicitation, OAM had ongoing communication
                            with Shirlington and released pertinent information to Shirlington
                            months in advance of its release to other potential bidders.
                            Specifically, the following DHS actions gave Shirlington an unfair
                            advantage over its competitors.

                                 •    OAM provided Shirlington on January 9, 2004, a copy of the
                                      statement of objectives detailing the program requirements.
                                      On January 12, 2004, Shirlington submitted a written proposal
                                      to OAM. Shirlington also sent additional information, such as
                                      copies of its operating policies, cost estimates, a reference
                                      letter, and a list of proposed drivers for security clearance
                                      purposes.

                                 •    OAM wanted OPO to reduce the contract requirements so it
                                      could award Shirlington a sole source, either 8(a) Business
                                      Development Program or HUBZone contract. In March 2004,
                                      OPO refused, stating that the contract would exceed $3 million,
                                      the threshold for a sole source award. It further stated it would

6
    FAR § 15.201, Exchanges with Industry Before Receipt of Proposals, April 5, 2004.


                          DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                         Page 6
            be inappropriate to understate the requirements to suit DHS’
            timeline.

       •    OPO officials told the DHS Office of Security on April 1,
            2004, before issuing the competitive HUBZone solicitation,
            that it would award Shirlington the contract. According to
            OPO, the contracting specialist made this statement in the
            context of awarding an 8(a) sole source contract to Shirlington.

       •    OPO issued the competitive HUBZone solicitation on
            April 15, 2004, approximately seven days after Shirlington
            received its HUBZone certificate on April 8, 2004. OPO
            officials said that a heavy workload delayed the solicitation’s
            issuance.

       •    OPO issued a competitive HUBZone solicitation after SBA
            determined that no HUBZone small business competition
            existed for Shirlington in the Washington, D.C., metropolitan
            area.

       •    OPO limited the bidding period to 5 days and rejected other
            offerors’ requests to extend the bidding period or to change the
            solicitation to an 8(a) Business Development Program set-
            aside. Federal regulations require agencies to establish a
            reasonable response time that will allow potential offerors a
            reasonable opportunity to respond to the solicitation. However,
            with the current transportation contract expiring on
            April 26, 2004, OPO did not extend the deadline or change the
            solicitation’s requirements because procurement officials said
            it would cause a disruption in transportation services. As a
            result, other offerors did not have time to prepare responsive
            proposals.

  Also, in February 2004, OAM notified Shirlington that it intended to
  use a HUBZone solicitation. On February 10, 2004, OAM issued a
  procurement request for a 1-year, HUBZone contract totaling
  $1.3 million for Shirlington. On February 17, 2004, Shirlington
  submitted its first HUBZone application to SBA. Consequently,
  Shirlington had approximately 2 months to apply for and receive its
  HUBZone certificate. When OPO issued the solicitation in April
  2004, other potential bidders had less than 1 week to respond. The
  short response time was insufficient for other bidders to acquire
  HUBZone certifications or to prepare responsive proposals. DHS
  subsequently disqualified bidders who lacked HUBZone certifications.



DHS Executive Transportation and Shuttle Bus Services Contract Review

                               Page 7
                           OPO also restricted competition for the executive transportation and
                           shuttle bus services contract when it issued a HUBZone solicitation.
                           Although federal regulations allow an agency to set-aside solicitations
                           for HUBZone businesses, the agency must reasonably expect that two
                           or more HUBZone businesses will submit offers.7 Before OPO issued
                           the solicitation, SBA had determined that no other HUBZone
                           businesses existed in the Washington, D.C. area. With the
                           understanding that no HUBZone competition existed, OPO issued the
                           HUBZone set-aside solicitation. Although four businesses submitted
                           offers, only Shirlington qualified as a HUBZone business and won the
                           contract.

                   Management Comments and OIG Analysis
                           HUBZone Set-aside Requirements

                           OPO acknowledged that it did not follow the normal more detailed
                           procurement procedures because of staffing limitations and an
                           extraordinarily voluminous workload. The contracting officer relied
                           heavily on acquisition support staff and program personnel to make
                           acquisition strategy decisions.

                           OPO said that the contracting officer made the decision to award to
                           Shirlington with the intention of complying with federal regulations
                           governing HUBZone Programs. Federal regulations require agencies
                           to set aside acquisitions that exceed the simplified acquisition
                           threshold for HUBZone small business concerns if the agency makes
                           two determinations: that there is reasonable expectation that offers will
                           be received from two or more HUBZone small business concerns, and
                           that the award will be made a fair market price. OPO further stated
                           that if the contracting officer receives only one acceptable offer from a
                           qualified HUBzone small business concern, the contracting officer
                           should make an award to that concern. In this situation, federal
                           regulations will allow a sole source award to that contractor.

                           We concur that federal regulations require agencies to set-aside certain
                           acquisitions for HUBZone small business concerns. We do not agree
                           that OPO had a reasonable expectation that it would receive offers
                           from two or more HUBZone small business concerns. The SBA’s
                           Assistant Administrator, HUBZone Empowerment Contracting, sent
                           OPO, OAM, and Shirlington notification prior to the issuance of the
                           solicitation that no HUBZone competition existed for Shirlington.
                           Documentary evidence also shows that the Assistant Administrator

7
    FAR § 19.1305(b)(1), HUBZone Set-Aside Procedures, April 5, 2004.


                         DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                        Page 8
                            called other HUBZone businesses to validate his research. He assured
                            DHS and Shirlington that it could award a sole source, HUBZone
                            contract to Shirlington.

                            In addition, we saw no documentary evidence that OPO or OAM
                            performed any other market research. According to a related GAO
                            decision,8 an agency must make reasonable efforts to ascertain whether
                            it will receive offers from at least two HUBZone small business
                            concerns with the capability to perform the work. The use of a
                            particular method for assessing the availability is not required.
                            Nonetheless, prior procurement history, market surveys, and advice
                            from the agency’s small business specialist may constitute adequate
                            grounds for a contracting officer’s decision not to set-aside
                            procurement. With only SBA’s market research showing that no
                            competition existed for Shirlington among HUBZone small business
                            concerns, we conclude that the acquisition did not meet the
                            requirements for a HUBZone set-aside.

                            8(a) Business Development Program

                            OPO expressed concerns that we clarify our report to address the
                            circumstances surrounding its original intention to award Shirlington a
                            sole source, 8(a) Business Development Program contract. OAM
                            urged OPO to reduce the contract requirements to meet the sole source
                            threshold for either an 8(a) Business Development Program or
                            HUBZone award.

                            OPO initially refused to understate the requirements to sole source to
                            Shirlington. Despite its original protest, OPO agreed to award such a
                            contract to Shirlington, until OPO learned that Shirlington had never
                            applied for an 8(a) certificate. The acquisition did not meet the sole
                            source requirements for the HUBZone, either. OPO subsequently
                            issued a competitive, HUBZone solicitation, after SBA provided OPO,
                            OAM, and Shirlington confirmation that no competition existed for
                            Shirlington among HUBZone small business concerns in the
                            Washington, D.C. metropolitan area. We have adjusted our report,
                            where appropriate, to provide additional clarification concerning this
                            issue.




8
    United States Government Accountability Office, Decision, B-299241, March 13, 2007.


                         DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                        Page 9
           OPO Awarded April 2004 Contract to Bidder That Was Unable To
           Meet Performance Requirements
                            The federal government may award contracts only to responsible
                            prospective contractors.9 Prior to contract award, a contracting officer
                            must make an affirmative determination that the prospective contractor
                            has the financial and technical resources to perform on the contract,
                            integrity, and a good past performance record. The contract officer’s
                            signature on a contract is evidence of a determination that the
                            prospective contractor is responsible. The official contracting file
                            must contain documentation to support the determination. When
                            insufficient information exists for an affirmative determination, then
                            the contracting officer must make a determination of non-
                            responsibility.

                            OPO did not comply with federal regulations10 when it awarded the
                            April 2004 contract because Shirlington was not a responsible
                            contractor. Shirlington did not have adequate financial resources to
                            fulfill the DHS contract requirement to provide shuttle buses not
                            exceeding 1-year old:

                                 •    On April 27, 2004, the first day of the contract, and for several
                                      weeks thereafter, Shirlington did not have new buses. The
                                      contract required buses no more than 1-year old.

                                 •    On April 30, 2004, Shirlington asked OPO for advanced
                                      payments to ease the financial strain that purchasing new buses
                                      would place on the business. OPO refused to provide advanced
                                      payments.

                                 •    On May 20, 2004, OPO issued a letter, threatening contract
                                      termination unless Shirlington corrected performance problems
                                      and met contract requirements.

                                 •    On May 26, 2004, Shirlington provided DHS confirmation of
                                      its bus order.

                                 •    On June 7, 2004, Shirlington sent a letter acknowledging its
                                      difficulty financing new buses to OPO.

                                 •    On June 8, 2004, Shirlington leased two new buses.

9
    FAR § 9.103, Policy, April 5, 2004.
10
     See FAR § 9.104, General Standards, April 5, 2004.


                          DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                        Page 10
                               •    On June 17, 2004, Shirlington leased a third new bus.

                           Interviews with program personnel and documents received from
                           Shirlington showed that OAM knew Shirlington did not have the
                           financial resources to purchase the new buses prior to contract award.
                           However, it did not communicate this critical financial information to
                           OPO. In addition, OPO did not review Shirlington’s financial
                           information or ensure that Shirlington had a commitment to lease or
                           purchase new buses. Moreover, OPO did not begin to question
                           contractor responsibility until April 28, 2004—2 days after contract
                           award.

                           OPO also did not properly document the contractor responsibility
                           determination for Shirlington, as federal regulations require.11 The
                           April 2004 contract file does not contain documentation to support
                           OPO’ assertion that it checked a Dunn and Bradstreet12 report,
                           reviewed GSA’s suspended and debarred contractors list, and
                           contacted the references Shirlington listed in its proposal. According
                           to a technical evaluation report prepared by OAM, Shirlington’s
                           references spoke “…very highly of the services provided and no
                           negative actions or comments are recorded in the contract files.” The
                           report did not contain identifying information or dates of contact for
                           the references.

                           OPO officials told us that (1) its desire to meet OAM’s request to
                           select Shirlington, (2) the limited time to fulfill DHS’ transportation
                           requirements, and (3) staffing shortages contributed to its failure to
                           establish contractor responsibility. At the time, OAM was promoting
                           Shirlington through email and verbal discussions. The existing
                           transportation services contract was set to expire less than 1 week after
                           the deadline for submitting replacement proposals.

                           OPO officials also told us that when an agency determines that a
                           prospective contractor does not have good past performance, integrity,
                           or financial or technical ability to perform a proposed contract, the
                           contracting officer must withhold the award and refer the issue for
                           SBA review.13 In such cases, SBA allows the bidder to apply for a
                           certificate of competency, which, if granted, would enable the agency
                           to select the bidder for contract award. SBA independently evaluates
                           the bidder for the elements of contractor responsibility. SBA has
                           discretion to issue or deny a certificate of competency.

11
   See FAR § 9.105-2, Determinations and Documentation, April 5, 2004.
12
   Dunn and Bradstreet is a commercial service that provides business credit and research reports.
13
   See also FAR § 19.602-1, Referral, April 5, 2004.


                        DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                      Page 11
           OPO officials told us it was likely that SBA would have issued a
           certificate of competency to Shirlington, if DHS had made a
           determination that Shirlington did not meet federal responsibility
           standards. Because OPO did not seek SBA review, we do not know
           whether SBA would or would not have issued Shirlington a certificate
           of competency. Obtaining a certificate of competency would not have
           changed the fact that, prior to contract award, Shirlington did not have
           financial resources adequate to provide new buses.

     Management Comments and OIG Analysis
           OPO said that the contracting officer relied solely on past performance
           to establish contractor responsibility and did not conduct any
           additional research. Past performance is only one aspect reviewed to
           determine contractor responsibility. Federal regulations require the
           contracting officer to review other areas, such as integrity and
           financial or technical ability to perform a proposed contract.

Office of Procurement Operations Has Recently Improved Its
Policies and Procedures

           Since April 2004, OPO has undergone significant changes to its
           staffing, acquisition review process, and policies and procedures. Had
           these changes been in place when DHS was considering Shirlington’s
           2004 contract award, OPO would likely have acted differently and
           avoided the problems associated with the Shirlington procurement.

           During the past 2 years, senior procurement staff has changed and the
           number of OPO staff and their qualifications increased. A new OPO
           Director was hired in November 2005, and a new Chief Procurement
           Officer took over in January 2006. The number of staff rose from 29
           personnel at the end of fiscal year 2004 to 150 personnel as of
           February 2007. OPO intends to hire up to 220 full-time equivalent
           positions by the end of the current fiscal year. OPO also hired two
           full-time, small business specialists. OPO officials said the small
           business specialists perform the preliminary work, such as market and
           financial research, for the contracting officers during the acquisition
           planning phase.

           Most contracting officers now have the acquisition certifications that
           the DHS acquisition certification program requires. OPO provides
           informal training to its acquisition personnel on a monthly basis. DHS



         DHS Executive Transportation and Shuttle Bus Services Contract Review

                                       Page 12
           policy also requires contracting officer’s technical representatives in
           the program offices to have appropriate professional certifications.

           On July 14, 2006, OPO approved new procedures that require all
           contracting actions to undergo a review by staff at least one level
           senior to the contracting officer. Reviewers determine whether each
           procurement action complies with applicable statutes, regulations, and
           policies. Reviewers also assess the soundness of the acquisition
           strategy and business judgment, and completeness, consistency and
           clarity of the official files. OPO has reviewed several contracts
           according to these procedures since their implementation.

           Dollar thresholds determine the level of additional reviews. The
           Policy, Oversight, and Customer Support division is suppose to review
           all justifications for contracts exceeding $500,000 and all solicitations
           and contract actions greater than $10 million. Legal counsel is
           suppose to review all justifications, solicitations, and contract actions
           greater than $500,000. Starting January 2, 2007, a OPO Board plans
           to review all solicitations and awards of $25 million or more. The
           Policy, Oversight, and Customer Support division, legal counsel, or
           the head of the Contracting Authority can require additional reviews of
           any contract action at any dollar threshold.

           Since its initial award to Shirlington, OPO issued other policies and
           procedures that will likely improve DHS’ compliance with applicable
           requirements.

                •    Standardized checklists and documentation procedures for
                     solicitations and contracts (June 2005).

                •    Management of acquisition workforce certification
                     (June 2005).

                •    Policies and procedures for establishing the roles,
                     responsibilities, and requirements for appointing contracting
                     officer’s technical representatives (July 2005).

                •    Policies and procedures for preparing contractor performance
                     evaluations (July 2006).

Conclusions
           In 2004, OAM appears to have focused exclusively on doing business
           with Shirlington for transportation services. Release of information to


         DHS Executive Transportation and Shuttle Bus Services Contract Review

                                       Page 13
  Shirlington months before it was available to other potential bidders
  created an unfair advantage that helped Shirlington secure the DHS
  contract. OPO did not ensure prior to the contract award that
  Shirlington had the financial resources to perform the work.
  Shirlington’s inability to provide new buses at the contract’s inception,
  its repeated requests for advanced payments to help purchase the
  buses, and DHS’ consideration of contract termination for
  performance issues are evidence of Shirlington’s non-responsibility.
  We referred these issues to our Office of Investigations to determine
  the extent of any potential individual culpability for the apparent
  regulatory violations cited in our report.

  DHS made numerous changes in OPO that will likely improve
  compliance with applicable requirements, particularly those
  concerning HUBZone competitions and contractor responsibility
  determinations and documentation. Key executives have changed.
  The number of procurement staff has increased. OPO established
  policies and procedures for contract oversight, including quality
  assurance measures that will likely help avoid future deficiencies. In
  light of the significantly changed situation, we propose no
  recommendations at this time. We will consider the effectiveness of
  these recent changes as we conduct future reviews.




DHS Executive Transportation and Shuttle Bus Services Contract Review

                              Page 14
Appendix A
Purpose, Scope, and Methodology



                          In response to Congressional concerns, we reviewed DHS’ April 2004
                          and October 2005 contract awards to Shirlington. We conducted the
                          review under the authority of the Inspector General Act of 1978, as
                          amended, and according to generally accepted government auditing
                          standards. We conducted our work from May 2006 through
                          September 2006.

                          In addition to a general request for basic information concerning the
                          Department’s executive transportation services, Congress asked us to
                          review and provide answers to the following concerns:

                               •    Did Shirlington meet the HUBZone certification criteria at the
                                    time of the April 2004 contract award?
                               •    What was the basis for the Department’s April 2004 sole
                                    source award to Shirlington?14
                               •    What steps did the Department take to determine that
                                    Shirlington was a responsible bidder?

                          We limited our scope by relying on SBA’s designation of Shirlington
                          as a HUBZone certified business and focused our work on determining
                          the basis of the April 2004 award and the establishment of contractor
                          responsibility. SBA has the sole responsibility for determining
                          whether a small business concern meets the HUBZone criteria. DHS
                          does not have the authority to determine HUBZone eligibility or to
                          approve HUBZone certificates. The Office of OPO relied exclusively
                          on SBA’s certification as required by law.

                          Because we relied on SBA’s determination of Shirlington as a
                          HUBZone certified business, we reviewed SBA’s Shirlington
                          application, protest, and appeal files. SBA had reviewed Shirlington’s
                          certification more than once in response to a small business concern
                          protest and continues to support its original determination. We
                          performed no additional audit work concerning the validity of
                          Shirlington’s HUBZone certification.

                          To provide general information concerning DHS’ executive
                          transportation services, we interviewed DHS’ OAM officials,
                          reviewed motor pool assessments, the motor pool operations
                          management directive, and driver and dispatch logs. We did not
                          review DHS components’ executive transportation contracts, but relied

14
  The Congressional request identified the April 2004 contract award as a sole source award. The contract file
indicates that it was not a sole source award.


                        DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                      Page 15
Appendix A
Purpose, Scope, and Methodology



                    on the best available information contained in the motor pool
                    assessment reports. We also received a list of personnel approved for
                    using Shirlington’s services, but we did not validate the information.

                    We received permission from Congressional staff to eliminate an
                    information request pertaining to dates, times of use, and names of
                    officials using Shirlington. This part of the request dealt with
                    operational aspects of Shirlington’s performance, while the rest of the
                    request related to contract solicitation and award. Also, answering the
                    operational questions would require time-consuming manual analysis
                    of large volumes of hard copy records.

                    To establish the basis of DHS’ April 2004 award and to establish
                    contractor responsibility, we reviewed the relevant contract files. We
                    also interviewed officials in the Office of OPO, the Office of OAM,
                    and the Office of Small Disadvantaged Businesses, Shirlington
                    personnel, and SBA officials. We observed motor pool operations at
                    the DHS Nebraska Avenue Complex. We searched emails and files
                    from DHS personnel in the Office of OAM and the Office of OPO and
                    prepared a chronology of events related to the contracts. We searched
                    the Central Contracting Registration Database for contractor
                    certifications and consulted with Dunn & Bradstreet, and our Office of
                    Investigations and DHS’ Office of Chief Counsel.

                    We referred our concerns about potential individual culpability for
                    regulatory violations to our Office of Investigations.




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 16
Appendix B
Congressional Requests




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 17
Appendix B
Congressional Requests




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 18
Appendix B
Congressional Requests




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 19
Appendix B
Congressional Requests




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 20
Appendix B
Congressional Requests




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 21
Appendix C
Management Comments to the Draft Report




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 22
Appendix C
Management Comments to the Draft Report




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 23
Appendix C
Management Comments to the Draft Report




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 24
Appendix C
Management Comments to the Draft Report




                  DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                Page 25
Appendix D
Authorized Users of DHS Executive Transportation Services



OAM provided us a list of authorized users, which we updated for consistency and DHS’ current position
titles. We did not validate the list.

                      Position                                                    Position
Advisor to the Chief of Staff                              Chief of Staff for Chief Medical Officer
Advisor to the Secretary                                   Chief of Staff for Grants and Training
Assistant Director for Domestic Nuclear Detection          Chief of Staff for International Affairs
Assistant Director for Legislative Affairs                 Chief of Staff for Management
 (two positions)                                           Chief of Staff for National Communication System
Assistant Secretary for Grants and Training                Chief of Staff for Operations
Assistant Secretary for Infrastructure Protection          Chief of Staff for Policy
Assistant Secretary for Intelligence                       Chief of Staff for Preparedness
Assistant Secretary for International Affairs              Chief of Staff for Procurement
Assistant Secretary for Legislative Affairs                Chief of Staff for Public Affairs
Assistant Secretary for Policy                             Chief of Staff for Science and Technology
Assistant Secretary for Private Sector Coordination        Chief Operating Officer for US-VISIT
Assistant Secretary for Public Affairs                     Chief Procurement Officer
Assistant Secretary for Strategic Plans                    Confidential Assistant to the Secretary
Associate General Counsel                                  Coordinator for Gulf Coast Relief and Rebuilding
Budget Liaison for Appropriations (two positions)          Counselor and Advisor to the Under Secretary for
Business Transformation Office                              Preparedness
Chief Counsel for Civil Rights and Civil Liberties         Counselor to the Assistant Secretary for Policy
Chief Counsel for Operations                               Counselor to the Chief of Staff
Chief Counsel for Privacy                                  Counselor to the Coordinator for Gulf Coast
Chief Financial Officer                                     Rebuilding
Chief Financial Officer for FEMA                           Counselor to the Deputy Secretary
Chief Financial Officer for Science and Technology         Counselor to the Secretary
Chief for Administrative Services                          Deputy Assistant Secretary for Grants and Training
Chief for Systems Engineering Policy                       Deputy Assistant Secretary for Infrastructure
                                                            Protection
Chief Human Capital Officer
                                                           Deputy Assistant Secretary for International Affairs
Chief Information Officer
                                                           Deputy Assistant Secretary for International Affairs
Chief Information Officer for FEMA                          Mission Integration
Chief Information Officer for Preparedness                 Deputy Assistant Secretary for Operations Policy
Chief Information Officer for US-VISIT                     Deputy Assistant Secretary for Policy
Chief Information Security Officer                         Deputy Assistant Secretary for Public Affairs
Chief Information Technology Officer                       Deputy Budget Officer
Chief Medical Advisor for Preparedness                     Deputy Chief Financial Officer
 Contingency Planning and Support
                                                           Deputy Chief Information Officer
Chief Medical Officer
                                                           Deputy Chief Information Officer for Preparedness
Chief of Staff
                                                           Deputy Chief of Staff for Infrastructure Protection


                      DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                     Page 26
Appendix D
Authorized Users of DHS Executive Transportation Services



                      Position                                                Position
Deputy Chief of Staff for International Affairs            Director for FEMA Operations
Deputy Chief of Staff for Operations                       Director for FEMA Response
Deputy Coordinator for Gulf Coast Relief and               Director for Foreign Financial Investment Policy
 Rebuilding                                                Director for Grants and Training Division of
Deputy Director for Contingency Planning and                 Training and Exercises
 Support                                                   Director for Grants and Training Office of Business
Deputy Director for Current Operations                       Administration
Deputy Director for FEMA                                   Director for Grants and Training Office of
Deputy Director for FEMA Gulf Coast Recovery                 Community Preparedness
Deputy Director for FEMA Operations                        Director for Grants and Training Policy, Initiatives,
                                                             and Analysis
Deputy Director for Homeland Security Operations
 Center                                                    Director for Grants and Training Preparedness
                                                             Programs
Deputy Director for International Affairs
 Information Sharing and Knowledge Management              Director for Gulf Coast Rebuilding Legislative
                                                             Affairs
Deputy Director for International Affairs Plans and
 Integration                                               Director for Gulf Coast Rebuilding Policy
Deputy Director for International Affairs                  Director for Gulf Coast Rebuilding Public Affairs
 Requirements                                              Director for Gulf Coast Rebuilding Public Liaison
Deputy Director for Operations                             Director for Homeland Infrastructure Threat and
Deputy Director for Operations Technology                    Risk Analysis Center
Deputy Director for US-VISIT                               Director for Homeland Security Advisory Council
Deputy General Counsel (two positions)                     Director for Homeland Security Operations Center
Director for OAM                                           Director for Human Capital Policy and Program
                                                             Innovation
Director for Budget
                                                           Director for Immigration and Customs Enforcement
Director for Cargo and Transportation Unit                   Mission Operations
Director for Chemical and Nuclear Preparedness and         Director for Immigration and Customs Enforcement
  Protection                                                 Policy and Planning
Director for Citizenship and Immigration                   Director for Implementation Planning for the
Director for Citizenship and Immigration Programs            Assistant Secretary for Strategic Planning
Director for Contingency Planning and Support              Director for Information Technology Solutions
Director for Counternarcotics                                Delivery
Director for Counterterrorism Planning                     Director for Infrastructure Protection
Director for Current Operations                            Director for International Affairs Information
                                                             Sharing and Collaboration
Director for Domestic Nuclear Detection
                                                           Director for International Affairs Information
Director for Equal Employment Opportunity                    Sharing and Knowledge Management
  Programs
                                                           Director for International Affairs Plans and
Director for FEMA Facilities Management                      Integration
Director for FEMA Human Resources                          Director for International Affairs Programs and
Director for FEMA Mitigation                                 Budget
Director for FEMA National Security Coordination           Director for International Affairs Requirements



                      DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                    Page 27
Appendix D
Authorized Users of DHS Executive Transportation Services



                       Position                                                 Position
Director for International Affairs Risk Assessment         General Counsel for FEMA
Director for International Enforcement Policy              Inspector General
Director for Law Enforcement                               Legislative Affairs (five positions)
Director for Legislative Affairs                           Legislative Affairs for Science and Technology (two
Director for Legislative Affairs Operations                  positions)
Director for Management Office of Safety and               Legislative Affairs House of Representatives
  Environment Programs                                     Legislative Affairs Senate
Director for National Capital Region Coordination          Ombudsman for Citizenship and Immigration
Director for National Communications Systems                Services
Director for Office of Financial Management                Press Secretary for the Privacy Office
Director for Office of National Drug Control Policy        Principal Deputy Assistant Secretary for
                                                             International Affairs
Director for Office of OPO
                                                           Privacy Officer
Director for Office of White House Liaison
                                                           Program Manager for International Affairs
Director for Policy Office Field Operations
                                                           Senior Advisor for Privacy
Director for Preparedness Business Operations
                                                           Senior Business Analyst for Policy
Director for Preparedness National Cyber Security
  Division                                                 Senior Counselor to the Secretary
Director for Science and Technology Research and           Senior Immigration Analyst for Immigration and
  Development                                                Customs Enforcement
Director for Science and Technology Systems                Senior Intelligence Officer for the Deputy Assistant
  Engineering and Development                                Secretary for International Affairs
Director for Secure Border Initiative                      Senior Legal Counsel for Grants and Training
Director for Small and Disadvantaged Business              Senior Military Advisor to the Deputy Secretary
  Utilization                                              Senior Policy Advisor to the Under Secretary for
Director for State and Local Government                      Management
  Coordination                                             Senior Policy Advisor to the Under Secretary for
Director for State and Local Government Public               Preparedness
  Safety Coordination                                      Senior Privacy Analyst
Director for the Secretary's Scheduling and Advance        Special Assistant to the Secretary
Director for Transportation Infrastructure                 Transportation Policy Advisor
Director for US-VISIT                                      Under Secretary for Management
Director for US-VISIT Border Control                       Under Secretary for Preparedness
Director for US-VISIT Interior Enforcement                 Under Secretary for Science and Technology
Division Director for FEMA                                 White House Fellow
Executive Assistant for Legislative Affairs
Executive Officer for Citizenship and Immigration
  Services
Executive Secretary
Executive Secretary for Science and Technology
General Counsel



                      DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                    Page 28
Appendix E
Shirlington DHS Contracts and Modifications



April 2004 Contract
  Modification                             Contract Value                                                    Total
                                                                                          Expiration      Accumulative
                                         Option         Option Not                                        Expenditures
Action     Date       Base Year                                              Total
                                        Exercised       Exercised
Award    4/27/2004    $ 1,632,708           ---          $1,684,116       $ 3,316,824         4/26/2005

  1      9/26/2004    $ 1,829,460           ---          $ 1,684,116      $ 3,513,576         4/26/2005     $ 737,449

  2      9/16/2004    $ 1,829,460           ---          $ 1,684,116      $ 3,513,576         4/26/2005    $737,449

  3      12/27/2004   $ 2,001,684           ---          $ 1,684,116      $ 3,685,800         4/26/2005    $1,218,421

  4       3/1/2005    $ 2,189,226           ---          $ 1,684,116      $ 3,873,342         4/26/2005    $1,554,289

  5      4/19//2005   $ 3,104,226           ---          $ 1,684,116      $ 4,788,342         7/26/2005    $1,966,749

  6      7/22/2005    $ 4,019,226           ---          $ 1,684,116      $ 5,703,342     10/26/2005       $3,831,098

          TOTAL                                                                                            $3,831,098




October 2005 Contract
  Modification                             Contract Value                                                    Total
                                                                                          Expiration      Accumulative
                                         Option          Option Not                                       Expenditures
Action     Date        Base Year                                             Total
                                        Exercised        Exercised
Award    10/27/2005   $ 3,935,344           ---        $ 17,296,016      $ 21,231,360     10/23/2006

  1      12/27/2005   $ 3,935,344           ---        $ 17,296,016      $ 21,231,360     10/26/2006         $614,125

  2       2/1/2006    $ 3,992,652           ---        $ 17,707,571      $ 21,700,223     10/26/2006         $614,125

  3       4/6/2006    $ 3,992,652           ---        $ 17,707,571      $ 21,700,223     10/26/2006        $1,569,827

  4      7/24/2006    $ 3,992,652           ---        $ 17,707,571      $ 21,700,223     10/26/2006       $2,552,170

  5      10/27/2006   $ 3,992,652      $ 3,138,113     $ 14,569,458      $ 21,700,223     7/26/2007         $3,790,378

          TOTAL                                                                                            $3,790,378




                      DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                     Page 29
Appendix F
Major Contributors to this Report



                      Rosalyn G. Millman, Director
                      Ruth Blevins, Audit Supervisor
                      Donald Emery, Auditor
                      Greg Huff, Auditor
                      Cheryl Johnson, Auditor
                      Robert Long, Auditor
                      Cynthia Noel, Auditor
                      Brian Smythe, Analyst
                      Gary Stivers, Auditor




                    DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                  Page 30
Appendix G
Report Distribution



              Department of Homeland Security

              Secretary
              Deputy Secretary
              Chief of Staff
              Deputy Chief of Staff
              General Counsel
              Executive Secretary
              Under Secretary for Management
              Assistant Secretary for Policy
              Assistant Secretary for Public Affairs
              Assistant Secretary for Legislative and Intergovernmental Affairs
              GAO/OIG Audit Liaison
              Chief Procurement Officer
              Chief Privacy Officer
              Director, Office of Procurement Operations


              Office of Management and Budget

              Chief, Homeland Security Branch
              DHS OIG Budget Examiner


              Congress

              Congressional Oversight and Appropriations Committees, as appropriate




                      DHS Executive Transportation and Shuttle Bus Services Contract Review

                                                    Page 31
Appendix F
Report Distribution




 Additional Information and Copies
 To obtain additional copies of this report, call the Office of Inspector General (OIG) at
 (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
 www.dhs.gov/oig.


 OIG Hotline
 To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
 or noncrimminal misconduct relative to department programs or operations, call the
 OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
 STOP 2600, Attention: Office of Investigations – Hotline, 245 Murray Drive, SW,
 Building 410, Washington, DC 20528; fax the complaint to (202) 254-4292; or email
 DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
 and caller.
